TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Processing and Monitoring of Balance Due
                      Notice Cases Needs Improvement



                                          March 1, 2010

                              Reference Number: 2010-30-019




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1=Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 1, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Processing and Monitoring of Balance Due Notice
                               Cases Needs Improvement (Audit # 200830049)

 This report presents the results of our review to determine whether the Compliance Services
 Collection Operations (CSCO) 1 has effective controls over the processing of Balance Due Notice
 Program cases to ensure appropriate actions are taken to resolve balance due notices accurately
 and timely. This audit was included in our Fiscal Year 2008 Annual Audit Plan under the major
 management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 Taxpayers with outstanding tax liabilities receive balance due notices informing them of their
 outstanding liabilities. When the taxpayer responds to the balance due notices, the Internal
 Revenue Service (IRS) is not always properly and timely working the cases or effectively
 managing the inventory of cases. Taxpayers who contact the IRS may experience unnecessary
 delays or costs associated with their outstanding liabilities, including an estimated
 6,217 taxpayers who were assisted by the 2 campuses during the weeks in which we selected our
 sample. 2




 1
     See Appendix V for a glossary of terms.
 2
     Week of September 15, 2008 (Philadelphia Campus) and November 3, 2008 (Andover Campus).
                                             Processing and Monitoring of
                                     Balance Due Notice Cases Needs Improvement




Synopsis
A balance due account occurs when the taxpayer has an outstanding liability for taxes, penalties,
and/or interest. CSCO managers are responsible for ensuring resolution actions on balance due
notice responses are completed timely and accurately. However, the results of our case reviews
showed that the work performed on balance due notice cases does not always comply with
established procedures and goals. In addition, CSCO managers could not rely on workload
inventory reports because they were inaccurate and inconsistent.
We selected a random sample of 60 Balance Due Notice Program cases from 2 campus
CSCO sites to determine whether the cases were worked properly and procedures were followed.
Fifty-seven (95 percent) of the 60 cases involved streamlined installment agreements. Our
analysis showed that installment agreements were established without considering whether they
were in the taxpayers’ or the IRS’ best interest. In 17 (30 percent) of the 57 cases, installment
agreements were established when taxpayers may have had the ability to fully pay and could
have avoided the costs of the installment agreement, which include a user fee, 3 penalties, and
interest. 4 We estimate that for the weeks in which we selected our sample, 1,874 taxpayers may
have had the ability to pay their tax liabilities in full. Other times it appeared the taxpayers did
not have the income to support the payment amounts required by the terms of the installment
agreements. IRS officials advised us that the Internal Revenue Manual instructions for
streamlined installment agreements do not require them to contact the taxpayer or make a
determination if the taxpayer has the ability to pay. Rather, the installment agreements are based
entirely on data provided by the taxpayers on the Installment Agreement Request (Form 9465).
IRS employees should document the case file to support all actions taken to resolve a taxpayer’s
case. However, 13 (22 percent) of the 60 sampled cases did not include proper documentation.
We estimate that for the weeks in which we selected our sample, balances due notice cases for
958 taxpayers were not properly documented. The Internal Revenue Manual also requires that
for any taxpayer correspondence, the CSCO needs to provide taxpayers with a final response that
addresses all taxpayer issues within 30 calendar days from the date received by the IRS.
However, in 39 (65 percent) of 60 sampled cases, this practice did not occur. In addition, the
interim letters acknowledging the delay were either late or there was no evidence that interim
letters were sent as required in 26 (67 percent) of the 39 untimely cases. We estimate that for the
weeks in which we selected our sample, 4,343 taxpayers were adversely affected when
processing of their balance due notices exceeded 30 calendar days.
Management was not always aware of the issues that we identified because the workload reviews
performed by team managers are not identifying these kinds of problems. The results of the


3
    Installment agreement user fees are $105 for new agreements.
4
    Interest on unpaid tax liabilities accrue until the liability is paid in full.
                                                                                                   2
                                   Processing and Monitoring of
                           Balance Due Notice Cases Needs Improvement



workload reviews for Balance Due Notice Program cases are combined with those of other
CSCO program cases.
Management relies on several inventory and age reports to manage and monitor the Balance Due
Notice Program. The number of case closures is a key measure on the inventory reports because
it is used to calculate the Balance Due Notice Program closure rate, which reflects how many
hours were needed to close the number of cases shown. This allows management to make
staffing and resource decisions, depending on the anticipated volume of cases. However, our
analysis showed that the case closures on the inventory reports at one campus were inaccurate
and inconsistent. For example, our physical count of the closed cases for the week in which we
selected our sample was 38 percent lower than the amount that was reported on the Accounts
Management System/Desktop Integration inventory report. In addition, the number of closed
cases reported on the various inventory reports ranged from 534 to 2,740 for the same time
period.
The two campuses also were not consistent in the types of cases that were counted as closed in
the inventory. One of the campuses we visited did not count cases that are processed
systemically and do not require action by IRS employees. However, over an 8-month period,
another campus counted over 4,000 such cases in its closed case inventory.
The actions taken by tax examiners on balance due notice cases vary from relatively simple to
complex and time consuming processes. Regardless of the complexity or time spent on an
action, the inventory reports capture and report it generically as a case closure. This can lead to
several closures for the same taxpayer on a single liability. For example, a case is opened and
closed when an installment agreement is established, and a new case may be subsequently
opened and closed every time a payment is received from the taxpayer. This classification can
make it difficult to assess the volume of work being performed and the number of taxpayers
assisted. ******************************1******************************* and our
sample of 60 cases were reported as closed a total of 525 separate times.
CSCO managers can transfer newly received balance due notice cases to another campus if there
is an inventory backlog that would prevent the cases from being worked timely. We found
evidence that instead of transferring new cases, older cases were transferred. This allowed the
transferring campus to show a better managed inventory, while negatively affecting the
inventory of the campus that received the older cases. Regardless of the impact on the inventory,
the taxpayers whose cases were transferred may have been unnecessarily burdened when actions
on their cases were delayed.

Recommendations
We recommended the Director, Collection Policy, Small Business/Self-Employed Division,
1) consider revising the streamlined installment agreement procedures to ensure that the

                                                                                                      3
                                   Processing and Monitoring of
                           Balance Due Notice Cases Needs Improvement



agreements are beneficial to both the IRS and the taxpayer. We also recommended the Director,
Campus Compliance Services, Small Business/Self-Employed Division, and the Director, Filing
and Payment Compliance, Wage and Investment Division, 2) remind employees about the need
to properly document and timely work case actions, and review systemically generated actions
such as interim letters to identify and resolve any systemic inconsistencies with Internal Revenue
Manual requirements; 3) establish workload review criteria to ensure Balance Due Notice
Program cases are worked in compliance with Collection function guidelines and policy; 4) use
existing codes in the Embedded Quality Review System to isolate the results of cases subject to
the workload reviews for the Balance Due Notice Program to help identify training needs;
5) establish procedures to timely and effectively reconcile inventory reports to the physical
inventory; 6) ensure CSCO inventory reports accurately reflect information that is common
among the various reports where applicable, such as the number of closed balance due notice
cases during a given time period; 7) establish uniform procedures on the type of balance due
notice cases that are reflected on CSCO inventory reports; 8) request programming changes to
the Accounts Management System/Desktop Integration to accurately identify repeat cases; and
9) establish controls to ensure cases that are transshipped in order to alleviate inventory backlogs
cause the least delay to taxpayers.

Response
IRS management agreed with most of our recommendations and is taking corrective actions.
The Director, Collection Policy, Small Business/Self-Employed Division, will consider changes
to installment agreement procedures to enhance the benefits to taxpayers and the IRS. The
Director, Filing and Payment Compliance, Small Business/Self-Employed Division, and
Director, Filing and Payment Compliance, Wage and Investment Division, agreed to remind
employees about the ongoing need to properly document and timely work case actions and to
include the proper use of interim letters in their 2010 campus reviews and identify and resolve
systemic inconsistencies with Internal Revenue Manual requirements. They also agreed to
ensure Embedded Quality and National Quality review criteria are effectively utilized in future
reviews of the Balance Due Notice Program, and Headquarters will continue to periodically
review campus cases to ensure compliance with Collection function guidelines and policy. They
also agreed to integrate the results of Embedded Quality and National Quality reports to better
identify Enterprise training needs to further improve the Balance Due Notice Program.
The Director, Filing and Payment Compliance, Small Business/Self-Employed Division, will
also establish a requirement for campuses to reconcile local reports to Work Planning and
Control on a quarterly basis. In addition, the Director, Filing and Payment Compliance, Small
Business/Self-Employed Division, and Director, Filing and Payment Compliance, Wage and
Investment Division, will review the need for uniform procedures on balance due notice cases
that are reflected on CSCO inventory reports, and they will also review whether the controls over


                                                                                                   4
                                  Processing and Monitoring of
                          Balance Due Notice Cases Needs Improvement



transshipped work are sufficient and effective to alleviate inventory backlogs while minimizing
the delay to taxpayers.
However, IRS management stated they will continue to follow the Service-wide procedures
provided in the Internal Revenue Manual to reconcile inventory reports to the physical inventory
instead of establishing new procedures to timely and effectively reconcile inventory reports to
the physical inventory. In addition, IRS management does not believe the Accounts
Management System/Desktop Integration needs programming changes to identify repeat cases.
Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
Our results show that the Service-wide procedures to reconcile inventory reports to the physical
inventory are not effective and that the frequency of the physical inventory may prevent a proper
reconciliation. The Internal Revenue Manual requires the CSCO to reconcile inventory reports
to the physical inventory on a quarterly basis, which may be too infrequent to determine the
cause of any variance. We determined that the Philadelphia Campus actual closed cases
inventory was significantly lower (38 percent) than the inventory reflected on the corresponding
campus inventory report. CSCO management in the Philadelphia Campus could not explain the
reason for this significant variance. Furthermore, instead of attempting to reconcile the physical
inventory counts to the appropriate inventory reports in an effort to identify the cause of
variances, we were told that the beginning inventory number for the next period’s inventory
report is just “plugged” with the physical count.
In addition, the IRS stated the Accounts Management System/Desktop Integration did not need
changing to identify repeat cases as this system is only used to count cases when there is
correspondence attached that has been worked. We do not agree. As our sample indicates, the
majority of Balance Due Notice Program cases are installment agreement cases. Taxpayers with
installment agreements receive an installment agreement reminder notice (Computer Paragraph
521) after every installment payment they make that advises them of the amount and due date of
their next installment. These reminder notices also include a payment voucher, which the
taxpayer is instructed to include when making his or her next installment. These payment
vouchers are considered correspondence by the Balance Due Notice Program and are treated as a
new case when entered into the Accounts Management/Desktop Integration system and counted
as a closed case. We believe that cases that are simply a recording of a payment voucher should
be identified as such, since this action by the Balance Due Notice Program does not impact the
taxpayer. The critical actions impacting the taxpayer, such as processing the payment and
crediting the payment to the taxpayer’s account, will have already been completed by other IRS
functions.
Additionally, the IRS disagreed with the first outcome measure, stating that all taxpayers with
unpaid taxes receive an initial notice demanding full payment of the balance due and
                                                                                                  5
                                  Processing and Monitoring of
                          Balance Due Notice Cases Needs Improvement



publications are enclosed which explain payment options. Taxpayers meeting streamline
installment agreement criteria can request an installment agreement without first proving that
they have an ability to pay the liability in full. However, despite the information on payment
options, our case review results indicate that taxpayers enter into installment agreements that are
not beneficial to the taxpayers and, in some cases, the IRS. Our first outcome measure shows the
financial impact of entering into an agreement in cases where taxpayers could have fully paid
their liabilities. We were advised that the Balance Due Notice Program simply processes the
applications for installment agreements based on the information provided by the taxpayer.
Furthermore, there are no automated checks of the taxpayer’s current adjusted gross income or
taxable income, or comparison of the user fee as a percentage of the balance due amount, to alert
the IRS of obvious or egregious situations where the taxpayer either may have the ability to fully
pay or, conversely, cannot afford the monthly installment they request. The outcome measure is
an estimate of the taxpayers’ cost of this practice at just one campus, during a 1-week period.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                  6
                                            Processing and Monitoring of
                                    Balance Due Notice Cases Needs Improvement




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Balance Due Notice Cases Are Not Always Worked Properly
          and Timely ....................................................................................................Page 3
                    Recommendation 1:........................................................Page 6

                    Recommendations 2 through 4:.........................................Page 7

          Balance Due Notice Program Inventory Is Not Effectively Managed ........ Page 7
                    Recommendations 5 and 6: ..............................................Page 13

                    Recommendation 7 through 9: ..........................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measures...............................................................Page 20
          Appendix V – Glossary of Terms .................................................................Page 22
          Appendix VI – Management’s Response to the Draft Report ......................Page 24
                Processing and Monitoring of
        Balance Due Notice Cases Needs Improvement




               Abbreviations

CSCO     Compliance Services Collection Operations
IDRS     Integrated Data Retrieval System
IRS      Internal Revenue Service
SB/SE    Small Business/Self-Employed
W&I      Wage and Investment
                                      Processing and Monitoring of
                              Balance Due Notice Cases Needs Improvement




                                            Background

A balance due account occurs when the taxpayer has an outstanding liability for taxes, penalties,
and/or interest. These accounts are automatically monitored through computer analysis and
placed in a specific status depending on age and/or activities. Based on the computer analyses,
the Internal Revenue Service (IRS) generates notices to taxpayers informing them of their
outstanding liabilities. For example, the IRS designates status 19 when the first balance due
notice is mailed to the taxpayer. After 5 weeks, if no contact is received from the taxpayer, the
IRS changes the account to status 20 and a second notice is mailed to the taxpayer. Two IRS
Divisions have responsibility for processing taxpayer responses to balance due notices.
Specifically, the Small Business/Self-Employed (SB/SE) Division Campus Compliance Services
function is responsible for processing taxpayer responses to balance due notices at its five
Compliance Services Collection Operations (CSCO) 1 sites. 2 The Wage and Investment (W&I)
Division Filing and Payment Compliance function is responsible for processing taxpayer
responses to balance due notices at its five CSCO sites. 3
When taxpayers respond to notices, CSCO tax examiners are assigned to work the cases based
on their skill level. The first step is the Collection First Read Process. In this step, examiners
work cases that can be quickly closed, such as cases where the taxpayer sends documentation to
support an address change. If the case cannot be closed during the First Read Process, it is
placed in a holding status and eventually moved to the technical units. The tax examiners must
then research the tax accounts to determine what actions can be taken to bring the taxpayer into
compliance. In addition, if contact is made with the taxpayer, either by telephone or in person,
the tax examiners must interview the taxpayer to obtain additional information. The examiners
must also analyze the taxpayer’s ability to pay when determining an option for resolving the
delinquency. Taxpayers have several payment options for resolving their accounts, including
payoffs, arranging for time extensions, or initiating installment agreements.
CSCO management is responsible for managing the balance due notice workload and
establishing controls to ensure resolution actions are completed timely and accurately.
CSCO management control balance due notice inventories using the Accounts Management
System/Desktop Integration, which replaced the Integrated Case Processing system. Accounts
Management System/Desktop Integration is used to add cases to inventory, assign cases to
employees in the technical units, and record history of work performed and actions taken on

1
  See Appendix V for a glossary of terms.
2
  The five SB/SE Division CSCO sites are in Holtsville, New York; Cincinnati, Ohio; Philadelphia, Pennsylvania;
Memphis, Tennessee; and Ogden, Utah.
3
  The five W&I Division CSCO sites are in Fresno, California; Atlanta, Georgia; Andover, Massachusetts;
Kansas City, Missouri; and Austin, Texas.
                                                                                                         Page 1
                                  Processing and Monitoring of
                          Balance Due Notice Cases Needs Improvement



balance due notice cases. Accounts Management System/Desktop Integration also produces
inventory reports that management can use to monitor the technical units’ inventories.
CSCO operations and department managers should also perform operational reviews at least
once a year. These reviews should evaluate organizational performance in accomplishing
program objectives. In addition, team managers should perform workload reviews to evaluate
employee performance, identify training needs, and ensure protection of taxpayer rights.
The IRS Quality Review process also provides a method to monitor, measure, and improve the
effectiveness of compliance work. To evaluate the effectiveness of CSCO programs, the IRS
Quality Review process uses the following five performance measures:
   •   Customer Accuracy – measures whether account resolution actions were correct.
   •   Regulatory/Statutory Accuracy – measures whether account resolution decisions were
       consistent with regulatory/statutory requirements.
   •   Procedural Accuracy – measures whether account resolution actions were consistent
       with internal procedures.
   •   Timeliness – measures whether account resolution actions were performed efficiently.
   •   Professionalism – measures effectiveness in the use of appropriate communication
       techniques.
This review was performed at the SB/SE Division Campus Compliance Services Office at the
Philadelphia Campus and the W&I Division Filing and Payment Compliance Office at the
Andover Campus during the period May 2008 through April 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                                 Processing and Monitoring of
                         Balance Due Notice Cases Needs Improvement




                               Results of Review

Balance Due Notice Cases Are Not Always Worked Properly and
Timely
CSCO managers are responsible for ensuring resolution actions on balance due notice responses
are completed timely and accurately. The primary control for accomplishing this responsibility
is the workload reviews performed by the CSCO team managers. Workload reviews are
intended to evaluate the work performed by the employee, identify training needs, and ensure
protection of taxpayer rights in accordance with IRS procedures. Workload reviews should be
performed monthly and usually involve two cases per employee. Managers will review all of the
cases for employees who are learning to work new types of cases or who have performance
issues.
We selected a random sample of 30 cases from the Philadelphia Campus and 30 cases from the
Andover Campus to determine whether the cases were worked properly and procedures were
followed. The cases we selected were worked and closed by the Balance Due Notice Program at
each campus. We reviewed information retained in the case file, the Integrated Data Retrieval
System (IDRS), and Accounts Management System/Desktop Integration as appropriate.
The results of our case reviews showed that the work performed on balance due notice cases
does not always comply with established procedures and goals. Specifically, we determined
that:
   •   Cases were not always properly documented.
   •   Installment agreements were established without considering whether they were in the
       taxpayers’ or IRS’ best interest.
   •   Case actions were not always closed timely.
   •   Workload reviews did not identify the above problems.

Cases were not always properly documented
All actions taken on an account are required to be documented clearly in the Accounts
Management System/Desktop Integration. Proper documentation provides support for the
actions taken to research and resolve a case. For example, in the case of an installment
agreement, proper documentation would include recording the provisions of the installment
agreement such as payment amount, payment date, and number of payments, as well as evidence
that the tax examiner ensured the taxpayer’s balance would be fully paid within

                                                                                        Page 3
                                       Processing and Monitoring of
                               Balance Due Notice Cases Needs Improvement



60 months and before the collection statute expired. However, our review determined that
13 (22 percent) of 60 cases did not include proper documentation. Based on our case review, we
estimate that for the weeks in which we selected our sample, 4 the balances due notice cases for
958 taxpayers were not properly documented. Without proper documentation, management does
not have evidence to determine if the actions taken on the cases were proper or if corrective
actions are necessary.

Installment agreements were established without considering whether they were
in the taxpayers’ or IRS’ best interests
Of the 60 cases that we selected for review, 57 (95 percent) involved installment agreements. In
all 57 cases, the taxpayers’ tax liability was under $10,000 and, therefore, the taxpayers were
eligible for a streamlined installment agreement. Our analysis showed the IRS and taxpayer
sometimes entered into installment agreements when taxpayers may have had the ability to fully
pay. Other times it appeared the taxpayers did not have the income to support the payment
amounts required.
For our sample cases, we analyzed the taxpayers’ Adjusted Gross Income from their applicable
U.S. Individual Income Tax Return (Form 1040), their tax liability, any payments made with the
Installment Agreement Request (Form 9465), and the applicable installment agreement user fee.
In 17 (30 percent) of the 57 cases, we found indications the taxpayer may have had the ability to
pay in full. The tax liabilities for these 17 cases were all less than $2,800, with an average tax
liability of $1,198. In 15 of the cases, the tax liability was less than 5 percent of current Adjusted
Gross Income ******************1*****************. Taxpayers with liabilities that are a
small percentage of their income may have the ability to fully pay their taxes.
*********************************1******************************************
****************************************************************************
***************************************************************************
***************************************************************************
**************************. We also identified 3 cases where the user fees were about 25
percent or more of the tax liability. Further, 8 of the cases were paid in full within
6 months due to a refund offset from the taxpayers’ subsequent Form 1040. Entering taxpayers
in installment agreements in situations where they can pay their tax liability in full causes an
unnecessary burden to the taxpayers, since they must pay the costs of the installment agreement,
which include the user fee, 5 penalties, and interest.
In other cases, the installment agreement was not in the best interest of the IRS. ****1*******
 ****************************************************************************


4
    Week of September 15, 2008 (Philadelphia Campus) and November 3, 2008 (Andover Campus)
5
    Installment agreement user fees are $105 for new agreements.
                                                                                              Page 4
                                   Processing and Monitoring of
                           Balance Due Notice Cases Needs Improvement



*********************************1****************************************
*************************************************************************.
SB/SE and W&I Division officials advised us that CSCO is primarily a paper process and that
the Internal Revenue Manual instructions regarding streamlined installment agreements do not
require them to contact the taxpayer or make a determination if the taxpayer has the ability to
pay. We were also advised that they consider the balance due notices sent to the taxpayer, which
encourage the taxpayer to full pay, to satisfy their requirement to request full payment from the
taxpayer. Accordingly, these installment agreements were established without a detailed
financial analysis of the taxpayer. Rather, the installment agreements were based entirely on
data provided by the taxpayers on Form 9465.

Case actions were not always closed timely
The Internal Revenue Manual requires the CSCO to provide taxpayers with a final response that
addresses all taxpayer issues within 30 calendar days from the date received by the IRS. Timely
resolution is important because penalties and interest continue to accrue until the tax liability is
paid in full. However, in 39 (65 percent) of 60 sampled cases, this practice did not occur.
Eleven (28 percent) of these 39 cases were closed more than 45 calendar days after being
received by the IRS and were therefore considered over age. In addition, if the case cannot be
closed within 30 calendar days, the Internal Revenue Manual requires that an interim letter be
sent to the taxpayer within the 30 calendar days acknowledging the delay. However, interim
letters were only sent in 27 of the 39 untimely cases and 14 (52 percent) of the 27 interim letters
were sent late.
The issuance of an interim letter does not establish a new deadline for a timely response. The
Internal Revenue Manual specifically defines “timely” as providing a final response within
30 calendar days of the IRS received date or requesting more information from the taxpayer if
needed. Interim letters only advise the taxpayer that the IRS is late in processing their request
and are not used to request additional information. In the 14 cases where interim letters were
sent late, the IRS was late twice on each case; once when it did not provide the taxpayer with a
final response that addressed all issues within 30 days and again when these interim letters were
sent late. Furthermore, in 12 (31 percent) of the 39 untimely cases, the IRS did not notify the
taxpayer that it was late in processing the taxpayer’s request. In total, interim letters were either
late or there was no evidence that interim letters were sent as required in 26 (67 percent) of the
39 untimely cases.
SB/SE Division officials advised us that interim letters were generated systemically and could
not explain why they were late or not sent when required. Based on our case review, we estimate
that for the weeks in which we selected our sample, 4,343 taxpayers were adversely affected
when processing of their balance due notices exceeded 30 calendar days.



                                                                                               Page 5
                                  Processing and Monitoring of
                          Balance Due Notice Cases Needs Improvement




Workload reviews did not identify the above problems
Management could not provide reasons why employees were not properly documenting cases,
assessing taxpayers’ ability to fully pay their liabilities, or responding to taxpayers’
correspondence timely because management was not aware of these problems. Specifically, the
workload reviews performed by team managers are not identifying problems with Balance Due
Notice Program cases such as employees improperly documenting case histories, processing
cases untimely, and failing to comply with installment agreement guidelines.
Although the results of the workload reviews are entered into the IRS Embedded Quality Review
System to measure an employee’s performance, the results specific to Balance Due Notice
Program cases are combined with those of other CSCO program cases, making it impossible to
identify the sources of problem areas in any one program. In addition, the National Quality
Review System separately captures performance information that is statistically valid to the
national and area levels. However, neither system captures performance information that is
statistically valid at the campus level. This limitation creates an information gap for the Balance
Due Notice Program since it is managed at the campus level. For example, the problems we
identified and reported here were significant, but were unique to the specific campuses we
visited. Without relevant performance information, campus managers may not identify problems
and solutions that are specific to their areas of responsibility.

Recommendations
Recommendation 1: The Director, Collection Policy, SB/SE Division, should consider
revising the streamlined installment agreement procedures to ensure agreements are beneficial to
both the IRS and the taxpayer.
       Management’s Response: IRS management agreed with this recommendation and
       will consider changes to enhance the benefits to taxpayers and the IRS.
       Office of Audit Comment: In their response, IRS management disagreed with the
       first outcome measure, stating that all taxpayers with unpaid taxes receive an initial
       notice demanding full payment of the balance due, and publications are enclosed which
       explain payment options. Taxpayers meeting streamline installment agreement criteria
       can request an installment agreement without first proving that they have an ability to pay
       the liability in full. However, despite the information on payment options, our case
       review results indicate that taxpayers enter into installment agreements that are not
       beneficial to the taxpayers and, in some cases, the IRS.
       Our first outcome measure shows the financial impact of entering into an agreement in
       cases where taxpayers could have fully paid their liabilities. We were advised that the
       Balance Due Notice Program simply processes the applications for installment
       agreements based on the information provided by the taxpayer. Furthermore, there are no

                                                                                            Page 6
                                  Processing and Monitoring of
                          Balance Due Notice Cases Needs Improvement



       automated checks of the taxpayer’s current adjusted gross income or taxable income or
       comparison of the user fee as a percentage of the balance due amount to alert the IRS to
       obvious or egregious situations where the taxpayer either may have the ability to fully
       pay or, conversely, cannot afford the monthly installment they request. The outcome
       measure is an estimate of the taxpayers’ cost of this practice at just one campus, during a
       1-week period.
To improve the handling of Balance Due Notice Program cases, the Director, Campus
Compliance Services, SB/SE Division, and the Director, Filing and Payment Compliance,
W&I Division, should:
Recommendation 2: Remind employees about the need to properly document and timely
work case actions and review systemically generated actions such as interim letters to identify
and resolve any systemic inconsistencies with Internal Revenue Manual requirements.
       Management’s Response: IRS management agreed with this recommendation and
       will remind employees about the ongoing need to properly document and timely work
       case actions. They also agreed to include the proper use of interim letters in their 2010
       campus reviews and to identify and resolve systemic inconsistencies with Internal
       Revenue Manual requirements.
Recommendation 3: Establish workload review criteria to ensure Balance Due Notice
Program cases are worked in compliance with Collection function guidelines and policy,
including encouraging timely processing of case actions and proper documentation.
       Management’s Response: IRS management agreed with this recommendation and
       will ensure the Embedded Quality and National Quality review criteria are effectively
       utilized in future reviews of the Balance Due Notice Program. Headquarters will
       continue to periodically review campus cases to ensure compliance with Collection
       function guidelines and policy.
Recommendation 4: Use existing codes in the Embedded Quality Review System to isolate
the results of cases subject to the workload reviews for the Balance Due Notice Program to help
identify training needs.
       Management’s Response: IRS management agreed with this recommendation and
       will integrate the results of Embedded Quality and National Quality reviews/reports to
       better identify training needs to further improve the Balance Due Notice Program.

Balance Due Notice Program Inventory Is Not Effectively Managed
IRS management relies on several inventory and age reports to manage and monitor the Balance
Due Notice Program. Because there are various levels of management, the information provided
in each of the inventory and age reports varies depending on the need of the management level.

                                                                                            Page 7
                                  Processing and Monitoring of
                          Balance Due Notice Cases Needs Improvement



CSCO management at the campuses generates a Collection Inventory Report; a Work, Planning
and Control Report; and reports from the Accounts Management System/Desktop Integration. In
addition, at one campus we visited, reports are generated by the IDRS that are also used to
control inventories. CSCO management reports provide information needed to effectively
monitor the Program at the campus level, such as case receipts, case closures, and the age of the
open cases in inventory. At the Philadelphia Campus, the Collection Inventory Report is used to
monitor receipts and closures of balance due notice cases. Similarly, the Accounts Management
System/Desktop Integration produces a report that provides information about the age of the
cases in inventory at the campus.
Because the SB/SE Division Headquarters Office needs information at a higher Program level, it
consolidates data from the various CSCO reports. The SB/SE Division Headquarters Office
produces a CSCO Inventory Report from the Work, Planning and Control Reports prepared by
the campuses. It also produces a Compliance Operations Business Report from the campuses’
Work, Planning and Control Reports and Collection Inventory Reports. These reports provide
consolidated information needed to make Program-wide decisions. For example, the
Compliance Operations Business Report tracks how well the campuses are meeting their
corporate goals.
When evaluating how effectively CSCO managers in the campuses managed their balance due
notice inventories, we determined that CSCO managers cannot rely on the inventory reports.
Our analysis showed that the inventory reports were inaccurate and inconsistent and that the
information system that captures the data for the reports does not identify repeat and reassigned
cases. Because the SB/SE Division Headquarters Office uses these CSCO inventory reports to
generate its own management reports, it does not have reliable information to make
Program-wide decisions or to effectively manage the Program.

Balance due notice inventory reports are inaccurate and inconsistent
To effectively manage the Balance Due Notice Program, the various inventory reports that
management relies on should be accurate and consistent among reports and campuses. To assess
the effectiveness and validity of the various inventory reports, we performed a physical inventory
of balance due notice cases that were closed during the weeks in which we selected our sample.
We also determined whether the balance due notice inventories were consistent among the
various inventory reports in addition to determining the types of cases reflected on these
inventory reports. Specifically, our results show that management inventory reports:
   •   Did not reconcile to a physical count of the inventory at one campus.
   •   Did not reconcile to each other at one campus.
   •   Were prepared using different criteria at each campus we visited.



                                                                                            Page 8
                                     Processing and Monitoring of
                             Balance Due Notice Cases Needs Improvement



Inventory reports did not reconcile to a physical count of the inventory at one campus. The
Accounts Management System/Desktop Integration inventory report is used by CSCO managers
to control and monitor case inventories and is the source for all of the other reports. To verify
the accuracy of the Accounts Management System/Desktop Integration inventory reports, we
compared the closed cases on hand at the beginning of each day of the week with the
corresponding weekly Accounts Management System/Desktop Integration inventory report. We
were able to reconcile our physical count of the inventory with the weekly Accounts
Management System/Desktop Integration inventory report at the Andover Campus. However,
Figure 1 shows the results of this comparison at the Philadelphia Campus.
                        Figure 1: Reported Inventory Compared
                  With Our Physical Count at the Philadelphia Campus
                 Inventory Shown on the
                  Accounts Management
                      System/Desktop                                  Difference Between
                   Integration Inventory        Physical Count        Physical Count and
                          Report                 of Inventory         Reported Inventory

                           3,268                     2,011            1,257 (38 percent)
               Source: Treasury Inspector General for Tax Administration analysis of IRS
               inventory reports and physical case counts for week ending September 19, 2008.

The physical inventory was significantly lower than the inventories reflected on the reports.
CSCO management in the Philadelphia Campus believed that a portion of the variance between
the closed cases on the inventory report and our count was due to the processing of electronic
cases and cases assigned by the SB/SE Division Headquarters Office. However, neither the
SB/SE Division Headquarters Office nor CSCO management in the Philadelphia Campus could
provide any evidence to support this explanation.
CSCO management also advised us that a physical count of cases in the units is performed at
least quarterly at both campuses. However, these physical counts are not reconciled to an
appropriate inventory report. Instead, we were told that the beginning inventory number for the
next period’s inventory report is “plugged” with this count.
Inventory reports did not reconcile to each other at one campus. The various inventory reports
relied on by Philadelphia Campus 6 CSCO management to assist them in monitoring case
activities reflect different inventory amounts for the same time periods. Figure 2 shows the
number of cases closed and ending inventory reported on the five major inventory reports used
by the Philadelphia Campus.



6
 CSCO management at the Andover Campus advised us that they only use one report (Accounts Management
System/Desktop Integration).
                                                                                                  Page 9
                                    Processing and Monitoring of
                            Balance Due Notice Cases Needs Improvement



                               Figure 2: Philadelphia Campus
                      Balance Due Notice Inventory Reports and Statistics

                                Accounts
                                                    CSCO                     Collection
                              Management                        Week at                      IDRS
                                                  Inventory                  Inventory
                             System/Desktop                     a Glance                    Report
                                                    Report                     Report
                               Integration

           Cases Closed              681            2,740        2,593         2,593          534
              Ending
             Inventory
                                   3,746            4,385        4,362         3,961        2,935
         Source: Treasury Inspector General for Tax Administration analyses of Philadelphia CSCO
         Inventory Reports for the week ending January 24, 2009.

When a balance due notice cases is closed, it is recorded on the Accounts Management
System/Desktop Integration, which is the source of data for the other reports. However, there
were significant differences in the number of closed cases reported, which resulted in different
ending inventory balances. The number of reported closed cases ranged from 534 to 2,740 and
the ending inventory ranged from 2,935 to 4,385 for the week ending January 24, 2009.
The inaccuracies in the inventory reports could lead management to incorrect conclusions about
productivity. For example, campus management uses the CSCO Inventory Report to monitor the
receipts and closures of Balance Due Notice Program cases. This report is also used to monitor
the rate of cases closed per hour, the resource hours expended to close these cases, and the age of
the cases. The SB/SE Division Headquarters Office also uses the CSCO Inventory Report to
determine if there is a need to reassign cases among campuses. We attempted to determine why
the reports were inconsistent, but IRS officials could not offer an explanation, other than to say
the reports have different uses, so the information will not be the same. However, this does not
explain why information that is common in each report – such as the number of Balance Due
Notice closed cases during the same 1-week period – are different on each report.
Inventory reports were prepared using different criteria at each campus we visited. Some
balance due notice cases are processed systemically and do not require action by IRS employees.
These cases are referred to as Generalized IDRS Interface cases. The taxpayer submits the
Form 9465 for his/her installment agreement electronically and it is processed with no
intervention by CSCO tax examiners. Consequently, these cases have no impact on Balance Due
Notice Program resources. However, CSCO inventory reports show that in an 8-month period,
CSCO management at the Philadelphia Campus counted more than 4,000 of these cases as
Balance Due Notice Program case closures.
Conversely, the Andover Campus only reports cases worked and closed by their Balance Due
Notice Program tax examiners, even though the Andover Campus processes significantly more
Generalized IDRS Interface cases. For example, during the 1-week period ending
November 8, 2008, the Andover Campus processed almost 1,000 cases through the Generalized
                                                                                                    Page 10
                                      Processing and Monitoring of
                              Balance Due Notice Cases Needs Improvement



IDRS Interface, but did not reflect any of them on its inventory reports as Balance Due Notice
Program closures. When campuses use different criteria for counting and reporting closed cases,
SB/SE and W&I Division Headquarters Office management cannot provide effective oversight
or properly assess productivity and the assignment of resources to the different campuses.

Inventory reports do not identify repeat or reassigned cases
As previously discussed, inventory reports provide management with important information
about productivity and workload so appropriate resource decisions can be made about staffing,
training, and customer service. A key measure on the inventory reports is the number of case
closures because it is used to calculate the Balance Due Notice Program closure rate, which
reflects how many hours were needed to close the number of cases shown. This allows
management to make staffing and resource decisions, depending on the anticipated case volume.
The actions taken by tax examiners on balance due notice cases vary from relatively simple
actions to complex and time-consuming processes, such as establishing a new installment
agreement for a taxpayer. Regardless of the complexity or time spent on an action, the inventory
reports capture and report it generically as a case closure. Figure 3 shows how this classification
process can result in multiple case closures for the same taxpayer on a single liability.
          Figure 3: Closed Cases Associated With an Installment Agreement

   Taxpayer and the          The IRS sends              The IRS               Taxpayer                Accounts
     IRS agree to             taxpayer a                receives               sends in             Management
     establish an             Form 9465.              completed              installment           System/Desktop
      installment                                   Form 9465 and            agreement               Integration
      agreement.                                      establishes             payment.            updated to reflect
                                                      installment                                 payment received.
                                                      agreement.


                              Case closed             Case closed                                  Case closed


                                                                         Process may repeat for
                                                                         each payment received
                                                                          (up to 60 payments).

Source: Treasury Inspector General for Tax Administration analysis of the installment agreement process in
the Balance Due Notice Program.

SB/SE and W&I Division officials advised us that unless the taxpayer sends correspondence
with their installment agreement payment through the CSCO, a closure is not taken. However,
our sample included some closed cases where the only correspondence was the payment voucher
and the only action documented was the receipt of a scheduled payment.

                                                                                                        Page 11
                                   Processing and Monitoring of
                           Balance Due Notice Cases Needs Improvement



We determined that 47 (78 percent) of our 60 sampled closed cases were worked and closed by a
CSCO Balance Due Notice Program tax examiner before and/or after our review. ****1******
****************************************************************************
**********************************************. This report is used as the source for
the Work, Planning and Control report as well as the Collection Inventory Report. We also
determined that 4 (7 percent) of the 60 cases were worked by the Automated Collection System
after our review, which indicates that although the cases were reported as closed by the Balance
Due Notice Program, they were not resolved. Overall, the 60 sampled closed cases were
reported as closed a total of 525 separate times.
In addition, CSCO managers can reassign (commonly referred to as “transshipped”) cases when
they determine that cases were misrouted and not intended for the Balance Due Notice Program.
These kinds of cases are typically routed to another program within the campus. Similarly,
CSCO managers can transship newly received balance due notice cases to another campus if
there is an inventory backlog that would prevent the cases from being worked timely.
The practice of transshipping cases is designed to reduce taxpayer burden by allowing the
processing of balance due notice cases more quickly when there is a backlog at a specific
campus. As new cases come to the backlogged campus, they should be immediately shipped to
another campus so the campus with the backlog can focus on its existing inventory, and new
cases do not compound to the backlog.
Because the inventory reports do not identify transshipped cases (or their age), it is possible that
cases are not being reassigned as intended. ****************1*************************
****************************************************************************
****************************************************************************
***************************************************************************
****************************************************************************
****************************************************************************
*****************************************************************************
****************************************************************************.
According to a CSCO quality review completed June 2009, the Philadelphia Campus assisted the
Brookhaven and Memphis Campuses with their inventory during the months of February and
March 2009. The majority of the transshipped inventory received was aged on receipt, which
further indicates that older cases are being transshipped instead of newer cases. Some CSCO
managers advised us that instead of transshipping new cases immediately, some campuses
transship their older cases first. This practice allows the backlogged campus’ aged cases to look
better and the gaining campus’ statistics on aged cases to appear worse. Meanwhile, the
taxpayer whose case is transshipped continues to experience delays instead of having his/her
case worked and resolved in a timely manner.



                                                                                             Page 12
                                 Processing and Monitoring of
                         Balance Due Notice Cases Needs Improvement



Because CSCO inventory reports do not accurately reflect the work being performed by the
Balance Due Notice Program, CSCO management cannot effectively analyze the Balance Due
Notice Program’s workload or make informed decisions regarding the Program. This condition
can contribute to improper oversight and inefficient use of Balance Due Notice Program
resources because staffing needs are based on reported inventory levels that misrepresent the
actual workload activity.

Recommendations
To improve oversight of the Balance Due Notice Program and the usefulness of CSCO inventory
reports, the Director, Campus Compliance Services, SB/SE Division, and the Director, Filing
and Payment Compliance, W&I Division, should:
Recommendation 5: Establish procedures to timely and effectively reconcile inventory
reports to the physical inventory.
       Management’s Response: IRS management disagreed with this recommendation by
       stating that they will continue to follow Service-wide procedures provided in the Internal
       Revenue Manual to reconcile inventory reports to the physical inventory and will
       continue to ensure these procedures are followed.
       Office of Audit Comment: Our results show that the Service-wide procedures to
       reconcile inventory reports to the physical inventory are not effective and that the
       frequency of the physical inventory may prevent a proper reconciliation. The Internal
       Revenue Manual requires the CSCO to reconcile inventory reports to the physical
       inventory on a quarterly basis, which may be too infrequent to determine the cause of any
       variance. We determined that the Philadelphia Campus actual closed cases inventory was
       significantly lower (38 percent lower) than the inventory reflected on the corresponding
       campus inventory report. CSCO management in the Philadelphia Campus could not
       explain the reason for this significance variance. Furthermore, instead of attempting to
       reconcile physical inventory counts to appropriate inventory reports in an effort to
       identify the cause of variances, we were told that the beginning inventory number for the
       next period’s inventory report is just “plugged” with the physical count.
Recommendation 6: Ensure CSCO inventory reports accurately reflect information that is
common among the various reports where applicable, such as the number of closed balance due
notice cases during a given time period.
       Management’s Response: IRS management agreed with this recommendation and
       will establish a requirement for campuses to reconcile local reports to Work, Planning
       and Control reports on a quarterly basis in the SB/SE Division. The W&I Division
       already reviews and reconciles local reports on a quarterly basis.


                                                                                         Page 13
                                  Processing and Monitoring of
                          Balance Due Notice Cases Needs Improvement



Recommendation 7: Establish uniform procedures on the type of balance due notice cases
that are reflected on CSCO inventory reports. Procedures should include separate identification
of cases that do not require Balance Due Notice Program resources.
       Management’s Response: IRS management agreed with this recommendation and
       the SB/SE and W&I Divisions will review and discuss the need for uniform procedures
       on balance due notice cases that are reflected on CSCO inventory reports.
Recommendation 8: Request programming changes to the Accounts Management
System/Desktop Integration to accurately identify repeat cases.
       Management’s Response: IRS management disagreed with this recommendation.
       They do not believe the Accounts Management System/Desktop Integration needs
       programming changes to identify repeat cases as this system is only used to count cases
       when there is correspondence attached that has been worked. Since cases often include
       multiple pieces of correspondence, there may be an appearance of repeater activity. They
       rely on the IDRS to record actions taken by employees to complete a case.
       Office of Audit Comment: As our sample indicates, the majority of Balance Due
       Notice Program cases are installment agreement cases. Taxpayers with installment
       agreements receive an installment agreement reminder notice (Computer Paragraph 521)
       after every installment payment they make, which advises them of the amount and due
       date of their next installment. These reminder notices also include a payment voucher,
       which the taxpayer is instructed to include when making his or her next installment.
       These payment vouchers are considered correspondence by the Balance Due Notice
       Program. When they are received, they are treated as a new case when entered into the
       Accounts Management System/Desktop Integration and counted as a closed case. We
       believe cases that are simply a recording of an installment payment voucher should be
       identified as such, since this action by the Balance Due Notice Program does not impact
       the taxpayer. The critical actions impacting the taxpayer, such as processing the payment
       and crediting the payment to the taxpayer’s account, will have already been completed by
       other IRS functions.
Recommendation 9: Establish controls to ensure cases that are transshipped in order to
alleviate inventory backlogs cause the least delay to taxpayers.
       Management’s Response: IRS management partially agreed with this
       recommendation and will review whether the controls over transship work are sufficient
       and effective to alleviate inventory backlogs while minimizing the delay to taxpayers.




                                                                                        Page 14
                                         Processing and Monitoring of
                                 Balance Due Notice Cases Needs Improvement



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the CSCO 1 has effective controls
over the processing of Balance Due Notice Program cases to ensure appropriate actions are taken
to resolve balance due notices accurately and timely. To accomplish the objective, we:
I.         Evaluated whether management in the Andover and Philadelphia Campuses have
           established effective inventory controls, per the Internal Revenue Manual, over the
           processing of balance due notice responses and aging inventories.
           A. Interviewed managers to determine how they use inventory controls to ensure that
              cases are timely assigned to balance due notice unit personnel for processing.
               1. Determined how the Accounts Management System/Desktop Integration control,
                  assign, and monitor inventory to unit personnel.
               2. Evaluated IRS efforts to ensure that computer-processed information and related
                  reports are accurate and complete.
               3. Identified the types of responses being worked in the balance due notice unit to
                  determine appropriate resolution activities for specific cases.
           B. Reviewed available inventory reports to identify case statuses and ages.
           C. Reviewed related Internal Revenue Manuals, SB/SE and W&I Division Headquarters
              Office guidelines, and local procedures for processing correspondence and workflow
              management.
           D. Determined whether the Collection First Read Process had properly evaluated balance
              due notice cases for routing to appropriate technical units.
II.        Reviewed random samples of balance due notice responses from both the case reviewers
           and the Collection First Read Program at the selected campuses to determine if the
           actions taken were accurate, complete, and timely. We reviewed valid statistical samples
           of closed collection cases and selected these samples based on random sampling
           techniques using random case selection from a population of 2,011 from the Philadelphia
           campus (week of September 15, 2008) and 4,604 from the Andover campus (week of
           November 3, 2008) for a total of 6,615 balance due notice cases. The initial samples
           (80 from Philadelphia and 100 from Andover) were based on a confidence level of


1
    See Appendix V for a glossary of terms.
                                                                                             Page 15
                                 Processing and Monitoring of
                         Balance Due Notice Cases Needs Improvement



       95 percent with a ± 5 percent precision level and an expected error rate of 10 percent.
       We over-selected cases to reduce the need for making multiple requests. After evaluation
       of the first 30 cases selected at each campus, we evaluated our judgmental estimate of the
       expected error rate and adjusted our sample size accordingly. We stratified our sample
       projections based on the results of our review of 60 cases and the error rates for each
       campus. Specifically, for the timeliness projection, we used a precision level of
       ± 13.03 percent (± 862 cases) and for the documentation projection, we used a precision
       level of ± 7.03 percent (± 465 cases).
       A. Reviewed each case and evaluated whether the closing action taken was consistent
          with instructions in the Internal Revenue Manual or other procedures prescribed by
          the SB/SE and W&I Division Headquarters Office.
       B. Compared the notice response received date and closing action date to determine if
          actions were completed within the prescribed 30 calendar day time period.
       C. Evaluated whether appropriate action was taken on notice responses that required
          additional information to resolve the balance due.
III.   Determined whether CSCO personnel performed and documented case reviews of the
       Balance Due Notice Program.
       A. Interviewed unit managers and quality review personnel to determine the procedures
          and methodology for selecting work products for review.
       B. Reviewed a sample of reports and available documentation related to the case
          reviews.
IV.    Tested the inventory controls at the campus level.
       A. Evaluated the inconsistencies identified between inventory reports and physical
          counts of closed cases.
          1. Identified cases resulting from the Generalized IDRS Interface template to
             process cases systemically and their impact on resources and the inventory
             reports.
          2. Determined validity and impact of the processing of electronic cases and cases
             assigned by the SB/SE Division Headquarters Office.
       B. Analyzed the value of the statistics provided on current inventory reports including:
          1. Credits for case closures that may be inaccurately captured on the reports.
          2. Reliance on a single source to maintain current inventory levels with little testing
             for effectiveness.


                                                                                           Page 16
                                 Processing and Monitoring of
                         Balance Due Notice Cases Needs Improvement



           3. Necessity of having multiple functions and personnel generating reports that
              include similar information.
       C. Analyzed whether repeat or problem cases can be identified from the available
          databases of case inventories.
       D. Evaluated the extent to which meeting corporate goals (45 calendar day timeliness
          criteria) may be impeding accountability at individual campuses.
V.     Determined the effectiveness of the management reviews of balance due notice cases.
       A. Evaluated the management quality review process to determine the value of any
          results reported.
           1. Compared our case review results (of our samples from each campus) with the
              management review results for the same time period.
           2. Assessed the value of the IRS’ quality case reviews in recommending
              improvements at the campus level.
       B. Examined any limitations of the Embedded and National Quality Review Systems
          designed to capture results of management quality reviews.
Internal controls methodology
Internal controls relate to the management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the CSCO’s policies, procedures, and
practices for documenting the actions taken to resolve balance due notice cases. We evaluated
these controls by interviewing management and reviewing a sample of balance due notice cases
from two CSCO sites.




                                                                                        Page 17
                                Processing and Monitoring of
                        Balance Due Notice Cases Needs Improvement



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Jr., Director
Timothy F. Greiner, Audit Manager
Richard J. Viscusi, Lead Auditor
Pillai Sittampalam, Senior Auditor
Frank Maletta, Auditor




                                                                                      Page 18
                               Processing and Monitoring of
                       Balance Due Notice Cases Needs Improvement



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 19
                                   Processing and Monitoring of
                           Balance Due Notice Cases Needs Improvement



                                                                                   Appendix IV


                                Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 1,874 taxpayers entered in installment
    agreements when they had the potential to pay their tax liability in full and must now pay the
    costs of the installment agreement, which include the user fee, penalties, and interest (see
    page 3).
•   Taxpayer Rights and Entitlements – Potential; $196,770 paid for installment agreement user
    fees in situations where the taxpayer had the potential to pay their tax liability in full (see
    page 3).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed valid statistical samples of closed collection cases based on random
sampling techniques using random case selection from a population of 6,615 balance due notice
cases. The initial samples were based on a confidence level of 95 percent with a ± 5 percent
precision level and an expected error rate of 10 percent. Our sample included 57 (95 percent) of
60 closed balance due notice cases involving installment agreements. In 17 (30 percent) of the
57 cases, we determined that the taxpayer may have had the ability to pay in full. When
projected to the total population of 6,615 balance due notice cases closed during the weeks of
September 15, 2008 (Philadelphia Campus) and November 3, 2008 (Andover Campus), we
estimate 6,284 balance due notice cases involved installment agreements and 1,874 taxpayers
may have had the ability to pay in full. We calculated the potential installment agreement user
fee amount by multiplying the $105 charged for new agreements by the 1,874 taxpayers to arrive
at $196,770.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 4,343 taxpayers’ balance due notice cases may
    have been affected when processing of their balance due notices exceeded 30 calendar days.
    Penalties and interest would continue to accrue until the tax liability is paid in full (see
    page 3).

                                                                                            Page 20
                                       Processing and Monitoring of
                               Balance Due Notice Cases Needs Improvement



Methodology Used to Measure the Reported Benefit:
Using the same sample of 60 closed balance due notice cases, we identified 39 cases (65 percent)
for which employees did not process the case within the required 30 calendar days. When we
stratified the sample projection 1 to the total population of 6,615 balance due notice cases closed
during the weeks of September 15, 2008 (Philadelphia Campus) and November 3, 2008
(Andover Campus), we estimate the processing of 4,343 balance due notice cases exceeded
30 calendar days.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 1,257 balance due notice cases reported on Accounts
    Management System/Desktop Integration inventory reports that could not be verified during
    a physical count of the balance due notice inventory (see page 7).

Methodology Used to Measure the Reported Benefit:
To verify the accuracy of the Accounts Management System/Desktop Integration inventory
reports, we counted the closed cases on hand at the beginning of each day during the weeks of
September 15, 2008 (Philadelphia Campus) and November 3, 2008 (Andover Campus) with the
corresponding weekly Accounts Management System/Desktop Integration inventory report. The
Accounts Management System/Desktop Integration inventory report reflected 3,268 balance due
notice cases, while we physically counted 2,011 balance due notice cases.




1
 Stratum 1 was 30.401 percent of the population with an error rate of 63.33 percent; Stratum 2 was 69.599 percent
of the population with an error rate of 66.67 percent. The resulting expected error rate for projecting to the
combined population was 65.65 percent.
                                                                                                         Page 21
                                  Processing and Monitoring of
                          Balance Due Notice Cases Needs Improvement



                                                                                Appendix V

                               Glossary of Terms

Accounts Management System/Desktop Integration – The system providing enterprise enabled
inventory workflow capability across operating divisions. As we approached the end of
fieldwork for this review, Desktop Integration was merged with the Correspondence Imaging
System in Accounts Management, and reports previously generated from the Desktop Integration
System are now generated from Accounts Management System/Desktop Integration.
Adjusted Gross Income – A taxpayer’s income (including wages, interest, capital gains, income
from retirement accounts, and alimony received) adjusted by specific deductions (including
contributions to deductible retirement accounts and alimony paid).
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Compliance Services Collection Operation (CSCO) – Units of tax examiners that work Balance
Due Notice Program cases.
Embedded Quality Review System – The system used by Collection function managers to
complete all case reviews. The system provides a structured context for evaluating employee
performance and a reports utility for performance documentation.
Headquarters Office – Central office location for IRS executives, management, and analysts.
The SB/SE Division Headquarters Office is located in New Carrolton, Maryland, and the
W&I Division Headquarters Office is located in Atlanta, Georgia.
Installment Agreements – Arrangements by which the IRS allows taxpayers to full pay
liabilities over time in smaller manageable payments.
Integrated Data Retrieval System – An IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
National Quality Review System – The system used by reviewers to provide independent
collection review information from which management may draw inferences regarding overall
case quality for a given operational segment.



                                                                                        Page 22
                                 Processing and Monitoring of
                         Balance Due Notice Cases Needs Improvement



Refund Offset – Occurs when a taxpayer’s overpayment is applied to any outstanding tax
liability prior to making a refund.
Streamlined Installment Agreement – An installment agreement for taxpayers with an aggregate
unpaid balance of assessments of $25,000 or less which will be fully paid in 60 months. No
managerial approval is required for streamlined installment agreements.
Technical Unit – A unit in the CSCO staffed with tax examiners that works balance due notices
received from taxpayers, by skill set.
Transshipping – The process of sending Balance Due Notice Program cases from one campus to
another.




                                                                                      Page 23
                 Processing and Monitoring of
         Balance Due Notice Cases Needs Improvement



                                               Appendix VI

Management’s Response to the Draft Report




                                                      Page 24
        Processing and Monitoring of
Balance Due Notice Cases Needs Improvement




                                             Page 25
        Processing and Monitoring of
Balance Due Notice Cases Needs Improvement




                                             Page 26
        Processing and Monitoring of
Balance Due Notice Cases Needs Improvement




                                             Page 27
        Processing and Monitoring of
Balance Due Notice Cases Needs Improvement




                                             Page 28
        Processing and Monitoring of
Balance Due Notice Cases Needs Improvement




                                             Page 29
        Processing and Monitoring of
Balance Due Notice Cases Needs Improvement




                                             Page 30
        Processing and Monitoring of
Balance Due Notice Cases Needs Improvement




                                             Page 31
        Processing and Monitoring of
Balance Due Notice Cases Needs Improvement




                                             Page 32
